Semiannual Report to Congress
October 1, 2013 – March 31, 2014



                                               May 2014




     Federal Election Commission - Office of Inspector General
            999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2013 - March 31, 2014




                                 FEDERAL ELECTION COMMISSION
                                 WASHINGTON, D.C. 20463




           OFFICE OF THE CHAIR




                                                               iii
     Office of Inspector General Semiannual Report to Congress




iv
October 1, 2013 - March 31, 2014




                                   v
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2013 - March 31, 2014




                                                         Table of Contents



      Executive Summary	                                                                 1
      The Federal Election Commission 	                                                  4
      Office of Inspector General	                                                       5
      OIG Audit Activity	                                                                6
      OIG Audit Follow-up Activity	                                                      7
      OIG Inspections and Special Reports	                                               9
      OIG Hotline Information	                                                          11
      OIG Investigations	                                                               12
      Additional OIG Activity	                                                          13
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	   14
      OIG Contacts	                                                                     15
      List of Training, Meetings and Conferences Attended by OIG Staff	                 16
      Reporting Requirements 	                                                          18
      Table I –	 Questioned Cost	                                                       19
      Table II – 	Funds Put To Better Use	                                              20
      Table III – Summary Of Audit And Inspection Reports With	                         21
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: Peer Review Activity	                                                 22




                                                                                             vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
October 1, 2013 - March 31, 2014




                                                                Executive Summary



 The Inspector General Act of 1978 (the IG Act),            control program to comply with OMB Circular A-123,
 as amended, states that the Inspector General is           Management’s Responsibility for Internal Control.
 responsible for conducting audits, investigations,
 and recommending policies and procedures that              The FY 2013 financial statement audit concluded the
 promote economy, efficiency, and effectiveness of          OIG’s contract with Leon Snead & Co. (LSC) to con-
 agency resources and programs, and to prevent              duct the annual audit. During this reporting period,
 fraud, waste, abuse, and mismanagement. The                the OIG completed the procurement process to hire
 IG Act also requires the Inspector General to keep         a public accounting firm to conduct the agency’s FY
 the Commission and Congress fully and currently            2014 financial statement audit. LSC was awarded
 informed about problems and deficiencies in the            the contract to conduct the FY 2014 financial state-
 Commission’s operations and the need for corrective        ment audit. For detailed information pertaining to
 action.                                                    the Audit of the FEC’s Fiscal Year 2013 Financial
                                                            Statements (OIG-13-02), see the section titled OIG
 This semiannual report includes the major accom-           Audit Activity (starting on page 6).
 plishments of the Federal Election Commission
                                                            During this semiannual reporting period, the
 (FEC) Office of Inspector General (OIG), as well as
                                                            OIG released the Review of Outstanding
 relevant information regarding additional OIG activi-
                                                            Recommendations as of December 2013 (OIG-14-
 ties. The executive summary highlights the most
                                                            02) report to the Commission. The report included
 significant activities of the OIG. Additional details
                                                            the results of the OIG’s follow up of seven (7) OIG
 pertaining to each activity (e.g. audits, hotline, and
                                                            audit and inspection assignments totaling ninety-
 investigations) can be found in subsequent sections
                                                            six (96) outstanding recommendations. Based on
 of this report. The diligent work, outstanding efforts,    follow-up work performed and FEC management’s
 and many contributions of our entire OIG staff make        corrective actions, the OIG was able to collectively
 the major accomplishments of the OIG possible.             close 20 outstanding recommendations in report
                                                            OIG-14-02. As a result of the audit follow up, the
 The OIG continued its contract with Leon Snead &
                                                            OIG issued a memorandum to the Chief Information
 Co. (LSC) to conduct the FEC’s fiscal year (FY) 2013
                                                            Officer (CIO) expressing the OIG’s concern with the
 annual financial statement audit. The final audit re-
                                                            lack of progress by the Office of the CIO to resolve
 port containing twenty-seven (27) recommendations
                                                            outstanding recommendations contained in the Audit
 related to information technology weaknesses was           of the Commission’s Property Management Controls
 issued December 12, 2013. Based on the significant         (OIG-09-02) report.
 IT weaknesses reported by the auditors, the OIG
 and LSC briefed the Commissioners on February 4,           In addition to the audit follow up work reported
 2014 to discuss the results of the FY 2013 audit. In       in the Office of Inspectors General’s Review of
 addition to the final audit report, LSC issued a man-      Outstanding Recommendations as of December
 agement letter to FEC management to report on an           2013 (OIG-14-02), the OIG performed additional fol-
 issue that did not rise to a level to be included in the   low up review for the Audit of the FEC’s Office of
 audit report. The management letter included rec-          Human Resources. This additional review resulted in
 ommendations for the FEC to improve their internal         the closure of nine (9) additional recommendations,


                                                                                                               1
                                                              Office of Inspector General Semiannual Report to Congress




for a total of twenty-nine (29) for this semiannual       During the FEC’s FY 2013 financial statement audit,
reporting period. Please see the section titled OIG       the OIG and the OIG’s contracted financial state-
Audit Follow up Activity (starting on page 7).            ment auditors discussed weaknesses regarding the
                                                          agency’s IT security controls with the Commission
Audit organizations conducting audits in accor-           Chair at the time. The Chair expressed an interest
dance with generally accepted government auditing         in obtaining the cost of implementing the NIST IT
standards (GAGAS) are required to have an inde-           security standards for the agency. The OIG expects
pendent peer review every three years. The ob-            to complete the cost analysis during the next report-
jective of the peer review program is to ensure an        ing period. For detailed information pertaining to
audit organization’s internal quality control system      OIG Inspections and Special Reports, see the sec-
adequately provides reasonable assurance that ap-         tion titled OIG Inspections and Special Reports
plicable auditing standards, policies and procedures      (starting on page 9).
are being followed. During this reporting period,
the International Trade Commission (ITC) OIG con-         During this semiannual reporting period, six (6) new
ducted an audit peer review of the FEC OIG. A final       hotline complaints were opened and eight (8) hot-
system review report was issued to the FEC OIG            line complaints were closed, including one (1) that
February 11, 2014 and this office received a pass         was merged into an investigation. The OIG has two
rating. There were no weaknesses identified in the        (2) open hotline complaints as of the close of this
system review report. See Appendix A (page 22) for        reporting period, including one (1) that was opened
additional information.                                   prior to the beginning of this reporting period. The
                                                          closed hotline complaints included allegations of
An Inspection of the FEC’s compliance with                improper termination; contract fraud; contracting vio-
the Federal Managers’ Financial Integrity Act             lations by employees; discrimination in hiring; em-
(FMFIA) requirements, as prescribed by Office of          ployee misconduct; waste of resources; and failure
Management and Budget (OMB) Circular A-123                to provide copies of requested public records that
commenced during this reporting period. The pri-          had been paid for. The improper termination case
mary objectives of the inspection are to determine        was referred to another agency, and the waste of
if the FEC’s annual internal control review (ICR)         resources was referred for OIG audit consideration.
process is adequately designed and operating ef-          In the public records matter, a preliminary inquiry
fectively to meet the requirements of FMFIA/OMB           showed the payment never reached the agency and
Circular A-123, and to identify any process improve-      there was no withholding of public records. The oth-
ments (best practices). The assessment fieldwork          er complaints were closed after preliminary inquiries
was completed in March 2014 and OIG discussed             found the allegations to be unsubstantiated or un-
the preliminary findings with OCFO management. A          supported due to a lack of evidence or information
final report is expected to be issued early in the next   upon which to proceed.
reporting period.
                                                          Five (5) investigations were open at the end of the
During this reporting period, the OIG began an anal-      reporting period, including four (4) that were opened
ysis to provide a cost estimate to the Commission         in a prior reporting period and one (1) that was
and the Office of the Chief Information Officer           opened during this reporting period. No investiga-
(OCIO) for implementing the National Institute of         tions were closed. For detailed information pertain-
Standards and Technology (NIST) information tech-         ing to hotline complaints and investigations, see the
nology security standards and the requirements of         sections titled OIG Hotline Information (starting on
the Federal Information Security Management Act           page 11) or OIG Investigations (starting on page
(FISMA) of 2002. The FEC is legally exempt from           12).
the NIST standards and FISMA. Based on this ex-
emption, the FEC’s OCIO has not implemented all           The Inspector General serves as Vice Chair of the
of the government-wide IT security standards appli-       Council of the Inspectors General on Integrity and
cable to the agency’s business processes.                 Efficiency (CIGIE). In this capacity, the IG supports


2
October 1, 2013 - March 31, 2014




 the Chair, reviews various documents, attends
 weekly meetings with the Chair and CIGIE execu-
 tive staff, and provides input into various issues that
 come before CIGIE. The IG is also Chair of the
 Inspector General Recommendation Panel. This
 panel is charged with making recommendations of
 qualified candidates to the White House and heads
 of various federal agencies to be considered for va-
 cant Inspector General positions. As Vice Chair,
 the IG is a member of the Executive Council of
 CIGIE. The Executive Council is composed of the
 CIGIE’s Chair, Vice Chair, the past Vice Chair of the
 CIGIE, and all Committee Chairs. The Executive
 Council provides guidance on CIGIE initiated proj-
 ects, the operating plans for each fiscal year, and
 the general business of CIGIE. The Council meets
 monthly to discuss issues that will affect CIGIE. The
 IG participated in various projects and events per-
 taining to CIGIE, this included attending a program
 sponsored by American University and participation
 in a program to enhance the capacity of the Iraqi
 Offices of Inspector General. See the section titled
 Council of the Inspectors General on Integrity
 and Efficiency (CIGIE) Activity (starting on page
 14).




                                                           3
                    Office of Inspector General Semiannual Report to Congress




    The Federal Election Commission



                In 1975, Congress created the Federal Election
                Commission to administer and enforce the Federal
                Election Campaign Act (FECA). The duties of the
                FEC, an independent regulatory agency, are to dis-
                close campaign finance information; enforce the pro-
                visions of the law; and oversee the public funding of
                Presidential elections.

                The Commission consists of six members who are
                appointed by the President and confirmed by the
                Senate. Each member serves a six-year term, and
                two seats are subject to appointment every two
                years. By law, no more than three Commissioners
                can be members of the same political party,
                and at least four votes are required for any offi-
                cial Commission action. The Chairmanship of the
                Commission rotates among the members each year,
                with no member serving as Chairman more than
                once during his or her term.

                Currently the FEC has a full complement of
                Commissioners – Lee E. Goodman, Chair; Ann
                M. Ravel, Vice Chair; Commissioners Carolyn C.
                Hunter; Matthew S. Petersen; Steven T. Walther; and
                Ellen L. Weintraub.




4
October 1, 2013 - March 31, 2014




                                   Office of Inspector General.


                                           The Inspector General Act of 1978 (P.L. 100-504),
                                           as amended, states that the Inspector General is
                                           responsible for: 1) conducting and supervising
                                           audits and investigations relating to the Federal
                                           Election Commission’s programs and operations; 2)
                                           detecting and preventing fraud, waste, and abuse
                                           of agency programs and operations while providing
                                           leadership and coordination; 3) recommending
                                           policies designed to promote economy, efficiency,
                                           and effectiveness of the establishment; and 4)
                                           keeping the Commission and Congress fully and
                                           currently informed about problems and deficiencies
                                           in FEC agency programs and operations, and the
                                           need for corrective action.




                                                                                            5
                                                              Office of Inspector General Semiannual Report to Congress




                                                             OIG Audit Activity



Audit of the FEC’s Fiscal Year 2013 Financial               “Management should also consider previous
Statements                                                  findings; e.g., auditor identified, internal manage-
                                                            ment reviews, or noncompliance with laws and
Assignment Number:	 OIG-13-02                               regulations when identifying risks. Identified risks
Status:	 Released December 2013                             should then be analyzed for their potential effect
                                                            or impact on the agency.”
http://www.fec.gov/fecig/documents/
FY2013FinancialStatementAuditReport.pdf                  Included in the OIG’s contract for the annual financial
                                                         statement audit is a Commission briefing that would
For the fifth consecutive year, the OIG continued a      be held at the end of the audit if deemed necessary.
contract with Leon Snead & Co. (LSC) to conduct          Based on the significant IT security issues reported
the FEC fiscal year (FY) 2013 annual financial state-    by the auditors, and the number of repeat findings
ment audit in accordance with generally accepted         identified during the financial statement audits since
auditing standards. Due to the Federal government        FY 2004, the OIG determined that a Commission
shut-down during the beginning of this semiannual        briefing was necessary for FY 2013. LSC and the
period, all FY 2013 financial statement audits due       OIG briefed the six (6) Commissioners on February
dates were extended to December 16, 2013. Audit          4, 2014. This briefing allowed the Commissioners an
fieldwork was completed on December 2, 2013 and          opportunity to ask questions regarding the identified
LSC provided the draft audit report to the OIG for       issues and gain a better understanding of their sig-
review, the report was then issued to FEC manage-        nificance and impact on the agency.
ment for review and comment. The exit conference
was held on December 10, 2013, and the final audit
report was issued on December 12, 2013 containing
twenty-seven (27) recommendations to improve in-
formation technology security at the FEC.

In addition to the final audit report, LSC provided a
management letter to FEC management in regards
to the agency’s annual internal control review and
annual assurance letter that are required by the FEC
to comply with OMB Circular A-123, Management’s
Responsibility for Internal Control. LSC reported to
management that based on the LSC auditors’ review
of the Office of the Chief Financial Officer’s (OCFO)
internal control vulnerability assessment and assur-
ance letter, the OCFO “…did not adequately ad-
dress internal control deficiencies contained in the
agency’s financial statement audit reports, or inter-
nal control risks…” identified by an independent con-
tractor to adhere to OMB Circular A-123, Section II.B,
Risk Assessment, which states:


6
October 1, 2013 - March 31, 2014




                                   OIG Audit Follow-up Activity



 Office of Inspector General’s Review of                by management fully resolved the findings for two
 Outstanding Recommendations as of December             (2) audits, Audit Follow-up Review of the FEC’s
                                                        Employee Transit Benefit Program (released 2009);
 2013
                                                        Quality Assessment Audit of the FEC’s Audit Division
 Assignment Number:	 OIG-14-02                          (released 2012); and one inspection, Inspection of
                                                        the FEC’s Kastle Key Program (released 2011).
 Status:	 Released February 2014
 http://www.fec.gov/fecig/documents/                    In addition, the OIG issued a memorandum on
 ReviewofOutstandingRecommendationsasof                 February 10, 2014 to the Chief Information Officer
 December2013.pdf                                       (CIO) during this review period expressing the OIG’s
                                                        concern with the lack of progress from the Office of
 During this semiannual reporting period, the           the CIO to resolve outstanding recommendations
 OIG released the Review of Outstanding                 contained in the Audit of the Commission’s Property
 Recommendations as of December 2013 report to          Management Controls report. Management had
 the Commission detailing the follow-up work con-       originally stated during the OIG’s audit follow up that
 ducted by the OIG and the status of the outstanding    no further action would be taken to resolve the out-
 OIG audit and inspection recommendations. The          standing issues. As a result, the OIG’s memoran-
 report covered seven (7) OIG assignments totaling      dum dated February 10, 2014 requested a written
 ninety-six (96) outstanding recommendations con-       statement from the CIO to accept the risks of not
 tained in the following reports:                       implementing the outstanding recommendations for
                                                        the audit, in order for the OIG to properly close the
   •	 Audit Follow-up Review of the FEC’s Employee      recommendations.
      Transit Benefit Program;
   •	 Audit of the Commission’s Property                On March 4, 2014 the CIO provided a written re-
      Management Controls;                              sponse to the OIG’s memorandum. The OIG is in
                                                        the process of reviewing the response from the CIO
   •	 Follow-up Audit of Privacy and Data Protection;   to determine if the outstanding recommendations
   •	 Follow-up Audit of Procurement and Contract       should be closed based on management’s risk ac-
      Management;                                       ceptance or if corrective action has been implement-
                                                        ed, and a follow up review is necessary.
   •	 Inspection of the FEC’s Kastle Key Program;
   •	 Quality Assessment Audit of the Audit Division;   Additional follow up work conducted by the OIG
      and                                               during the quarter ending March 31, 2014

   •	 Inspection of the FEC’s Disaster Recovery         Subsequent to the release of the December 2013
      Plan and Continuity of Operations Plans.          Review of Outstanding Audit Recommendations re-
                                                        port, the OIG followed up with the Acting Director of
 Based on the follow-up work performed, the OIG
                                                        the Office of Human Resources regarding outstand-
 was able to collectively close twenty (20) outstand-
                                                        ing recommendations in the Audit of the Federal
 ing recommendations. Adequate implementation
                                                        Election Commission’s Office of Human Resources
 of these twenty (20) outstanding recommendations
                                                        (OHR) which was issued July 2013. Based on the


                                                                                                              7
                                                       Office of Inspector General Semiannual Report to Congress




OIG’s review of documentation to support corrective
action by OHR, we were able to close nine (9) of the
twenty-six (26) outstanding audit recommendations.

In total, due to adequate corrective actions imple-
mented by management, the OIG closed twenty-
nine (29) outstanding recommendations during this
semiannual reporting period.




8
October 1, 2013 - March 31, 2014




                   OIG Inspections and Special Reports



 Office of Equal Employment Opportunity                   inspection has been completed, but high priority
 Inspection                                               investigations have required a reassignment of re-
                                                          sources and delayed drafting of the report. Once the
 Assignment Number:	 OIG -12-07                           investigations are complete and resources can be
 Status: 	 In Progress                                    tasked back to the inspection, the OIG will meet with
                                                          the OEEO and an inspection report will be finalized
 The OIG completed fieldwork for an inspection of
                                                          and published.
 the FEC’s Office of Equal Opportunity Employment
 (OEEO) in the previous reporting period. The OEEO
 administers and implements anti-discrimination,
 prohibited personnel practice and affirmative action     Inspection of the Federal Election Commission’s
 statutes and regulations, as well as related policies,   (FEC) Compliance with FMFIA/OMB Circular
 procedures and guidance (collectively, “EEO laws”)       A-123	
 for the FEC.
                                                          Assignment Number:	 OIG-14-01
 The OEEO’s general responsibilities are twofold –        Status:	 In Progress
 to advise and educate employees and managers of
                                                          The inspection of the FEC’s compliance with the
 their rights and responsibilities under the EEO laws,
                                                          Federal Managers’ Financial Integrity Act (FMFIA) re-
 and to process complaints of alleged violations of
                                                          quirements, as prescribed by Office of Management
 EEO laws. The OEEO is also responsible for record-
                                                          and Budget (OMB) Circular A-123 commenced dur-
 keeping and reporting, especially of complaint statis-
                                                          ing this reporting period. According to the FMFIA,
 tics, as required by the EEO laws.
                                                          “…management is responsible for establishing and
                                                          maintaining internal control to achieve the objectives
 The inspection has two goals. The first goal is to
                                                          of effective and efficient management operations,
 analyze the OEEO complaint process and statistics.
                                                          reliable financial reporting and compliance with ap-
 This goal has three objectives: 1) to ensure that the
                                                          plicable laws and regulations…” The FEC’s Office
 OEEO is procedurally compliant, both in process and
                                                          of the Chief Financial Officer (OCFO) oversees the
 practice, with the statutes and regulations govern-
                                                          agency’s internal control program and has opera-
 ing complaints; 2) to evaluate the effectiveness of
                                                          tional responsibility for FEC’s annual internal control
 OEEO educational and outreach efforts concerning
                                                          assessment process (the ICR process).
 the complaint process and practice; and 3) to provide
 FEC management with an understanding of trends in        The primary objectives of the inspection are to as-
 reported allegations of violations of EEO laws. The      sess whether the FEC is complying with the annual
 second goal is to review OEEO-sponsored training         assessment requirement of FMFIA, to determine if
 and post-training survey results from participants.      the FEC’s annual internal control review (ICR) pro-
 This goal is intended to measure the OEEO’s perfor-      cess is adequately designed and operating effective-
 mance in providing training to FEC employees.            ly to meet the requirements of FMFIA/OMB Circular
                                                          A-123, and to identify any process improvements
 The necessary records and case files have been re-
                                                          (best practices).
 viewed by the OIG, and a survey has been conduct-
 ed of FEC employees. The field work for the OEEO



                                                                                                               9
                                                           Office of Inspector General Semiannual Report to Congress




On December 7, 2013, the OIG sent out an inspec-       Cost Analysis of the FEC’s Implementation
tion notification to management and then met with      of the National Institute of Standards and
the Acting Chief Financial Officer (CFO) and the       Technology’s Security Controls and the Federal
Acting Accounting Director on January 2, 2014 to       Information Security Management Act of 2002
discuss the purpose of the inspection and to discuss
the preliminary scope for the inspection.              Assignment Number: 	 OIG-14-03
                                                       Status: 	 In Progress
To gain an understanding of FEC’s internal con-
trol program, the OIG reviewed FEC’s policy and
                                                       The FEC is legally exempt from the Federal
procedures related to the program and researched
                                                       Information Security Management Act (FISMA) of
all applicable laws, regulations, and guidance. OIG
                                                       2002. Based on this exemption, the FEC’s Office of
reviewed all internal control documentation submit-
                                                       the Chief Information Officer (OCIO) has not imple-
ted by FEC program offices to support the annual
                                                       mented all of the government-wide IT security stan-
assessments for FYs 2012 and 2013, and to en-
                                                       dards applicable to the agency’s business process-
sure program offices are complying with internal
                                                       es. The OIG has reported for several years that the
policies and procedures. OIG also interviewed five
                                                       agency should formally adopt the National Institute
(5) program managers to gain an understanding of
                                                       of Standards and Technology (NIST) minimum IT
their offices’ annual review process. The OIG then
                                                       security standards to improve the FEC’s IT security
evaluated FEC internal control processes against
                                                       program.
the FMFIA/OMB Circular A-123 requirements to de-
termine if the FEC process is adequately designed      During the FEC’s FY 2013 financial statement audit,
for compliance. The assessment was completed           the OIG and the OIG’s contracted financial state-
in March 2014 and OIG has discussed preliminary        ment auditors discussed the weaknesses regarding
findings with OCFO management.                         the agency’s IT security controls with the FEC’s FY
                                                       2013 Commission Chair at the time; this discussion
The OIG is in the process of completing the draft      occurred during a meeting required by Statement of
report and the OIG expects to publish the inspection   Auditing Standards (SAS) 114: Communication With
report during the next reporting period.               Those Charged with Governance. At this meeting,
                                                       the prior Commission Chair expressed an interest in
                                                       obtaining the cost of implementing the NIST IT se-
                                                       curity standards for the agency; therefore, the OIG
                                                       procured contract services to conduct a cost analy-
                                                       sis to provide a cost estimate to the Commission
                                                       and the OCIO for implementing the NIST standards
                                                       and the requirements of FISMA.

                                                       The OIG requested proposals for the contract, and
                                                       after review, awarded the contract to Your Internal
                                                       Controls. The planning meeting for the assignment
                                                       was held on March 26, 2014 to discuss a draft work
                                                       plan to conduct the cost analysis.


10
October 1, 2013 - March 31, 2014




                                                OIG Hotline Information



 The OIG hotline exists to enable FEC employees,             improper termination; contract fraud; contracting vio-
 FEC contractors, and the public to have direct and          lations by employees; discrimination in hiring; em-
 confidential contact with the OIG. All allegations or       ployee misconduct; waste of resources; and failure
 referrals of fraud, waste, abuse, mismanagement,            to provide copies of requested public records that
 and misconduct involving FEC employees, contrac-            had been paid for. The improper termination case
 tors, programs, operations, property, or funds re-          was referred to another agency, and the waste of
 ceived through any means are termed “hotline com-           resources was referred for OIG audit consideration.
 plaints” per OIG policy. Once a hotline complaint           In the public records matter, a preliminary inquiry
 has been received, a preliminary inquiry is conduct-        showed the payment never reached the agency and
 ed to determine whether the hotline complaint will          there was no withholding of public records. The oth-
 be closed with no further action taken, referred to         er complaints were closed after preliminary inquiries
 management or another agency, or an investigation           found the allegations to be unsubstantiated or un-
 will be initiated.                                          supported due to a lack of evidence or information
                                                             upon which to proceed.
 The OIG considers many factors when evaluating
                                                             The OIG frequently receives reports and allegations
 whether to open an investigation based on a hot-
                                                             which are misdirected complaints that should have
 line complaint, and acknowledges that every hotline
                                                             been routed to the Office of Complaints and Legal
 complaint received by the OIG cannot be investi-
                                                             Administration within the Office of General Counsel
 gated and in many cases do not merit investiga-
                                                             (OGC), are outside the jurisdiction of the OIG or
 tion. OIG policy requires that hotline complaints be
                                                             the FEC, or are facially unsubstantiated, merit-
 evaluated on certain criteria, including the merits of
                                                             less or invalid. For example, Section 437g of the
 an allegation, the availability of evidence, and the
                                                             Federal Election Campaign Act of 1971, as amend-
 existing priorities, commitments, and resources of
                                                             ed (FECA), sets forth strict requirements for report-
 the OIG. Under this policy, hotline complaints are
                                                             ing alleged violations of FECA, and FEC regulations
 classified as either high or low priority complaints.
                                                             direct that such complaints be filed directly by the
 High priority complaints are investigated and low
                                                             complainant and processed through OGC; still, the
 priority complaints are either closed with no action
                                                             OIG regularly receives complaints of alleged FECA
 or referred to the appropriate official for possible fur-
                                                             violations, many of which are not legally compliant.
 ther review. Hotline evaluation decisions are made
                                                             Form responses with information about properly fil-
 by the Chief Investigator, with concurrence from the
                                                             ing a complaint with OGC are sent to complainants
 Deputy IG.
                                                             alleging FECA violations, as the OIG cannot simply
                                                             route FECA complaints to OGC.
 During this semiannual reporting period, six (6) new
 hotline complaints were opened and eight (8) hot-
 line complaints were closed, including one (1) that
 was merged into an investigation. The OIG has two
 (2) open hotline complaints as of the close of this
 reporting period, including one (1) that was opened
 prior to the beginning of this reporting period. The
 closed hotline complaints included allegations of


                                                                                                                11
                                                          Office of Inspector General Semiannual Report to Congress




OIG Investigations



OIG investigations seek out facts related to allega-
tions of wrongdoing. OIG investigations may ad-
dress administrative, civil, and criminal violations of
laws and regulations. The subject of an OIG in-
vestigation can be any agency employee, an FEC
contractor, consultant, or a person or entity involved
in alleged wrongdoing affecting FEC programs and
operations.

As discussed in OIG Hotline Information, all hotline
complaints are evaluated to determine if they war-
rant an investigation. If an investigation is opened,
the hotline complaint is closed and merged into the
investigative file. OIG investigations involve a de-
tailed examination or inquiry into issues brought to
our attention by various sources, and may include
interviews of relevant witnesses and subjects, docu-
ment reviews, and computer forensic examinations.
At the conclusion of an OIG investigation, the OIG
prepares a report that sets forth the allegations and
an objective description of the facts developed dur-
ing the investigation.

Five (5) investigations were open at the end of the
reporting period, including four (4) that were opened
in a prior reporting period and one (1) that was
opened during this reporting period. No investiga-
tions were closed.




12
October 1, 2013 - March 31, 2014




                                                  Additional OIG Activity



 Besides conducting audits, inspections, and investi-     Leadership Alumni Community of Practice
 gations, the OIG performs, and is involved in an ar-     (CoP). Various documents were reviewed, to
 ray of additional projects and activities. As required   include the draft mission statement and char-
 by the Inspector General Act of 1978, as amend-          ter for the CoP, and several examples of es-
 ed, all legislation compiled by the Commission’s         tablished CoPs. The CIGIE Leadership CoP
 Congressional Affairs Office is reviewed by the          Charter was finalized and officially introduced
 Inspector General (IG). In addition, the IG routinely    at the March 5, 2014 CIGIE Professional
 reads all Commission agenda items for Commission         Development Committee meeting.
 meetings.

 The IG also reviews and provides comments, when
 appropriate, on legislation provided by the Council
 of Inspectors General on Integrity and Efficiency
 (CIGIE) Legislative Committee. Listed below are ex-
 amples of the OIG’s additional activities during this
 reporting period:

   •	 At the start of this reporting period, the
      FEC welcomed two new members to the
      Commission. Lee Goodman and Ann Ravel
      were sworn in as Commissioners in late
      October 2013. Briefing books were compiled
      and the IG met with the new Commissioners to
      provide an overview of the general operating
      procedures of the OIG.

   •	 The OIG prepared the annual IG assessment of
      the FEC’s management and performance chal-
      lenges. For FY 2013, this included information
      technology security; governance framework;
      and human capital management / human re-
      sources operations.
   •	 The OIG reviewed the FEC’s Workplace
      Recommendations report and provided the ad-
      ministrative officer with comments and informa-
      tion pertaining to OIG space and resource re-
      quirements. The OIG also attended the Senior
      Leader meeting on space requirements.
   •	 A member of the OIG participated in sev-
      eral meetings to discuss creating the CIGIE



                                                                                                        13
                                                            Office of Inspector General Semiannual Report to Congress




       Council of the Inspectors General on
     Integrity and Efficiency (CIGIE) Activity


The Inspector General serves as Vice Chair of the
Council of the Inspectors General on Integrity and
Efficiency (CIGIE). In this capacity, the IG sup-
ports the Chair, reviews various documents, attends
weekly meetings with the Chair and CIGIE execu-
tive staff, and provides input into various issues that
come before CIGIE. The IG is also Chair of the
Inspector General Recommendation Panel. This
panel is charged with making recommendations of
qualified candidates to the White House and heads
of various federal agencies to be considered for va-
cant Inspector General positions. As Vice Chair,
the IG is a member of the Executive Council of
CIGIE. The Executive Council is composed of the
CIGIE’s Chair, Vice Chair, the past Vice Chair of the
CIGIE, and all Committee Chairs. The Executive
Council provides guidance on CIGIE initiated proj-
ects, the operating plans for each fiscal year, and
the general business of CIGIE. The Council meets
monthly to discuss issues that will affect CIGIE.

During this reporting period, the IG participated in
various projects and events pertaining to CIGIE, this
includes:                                                    Lynne A. McFarland, Inspector General, Federal
                                                             Election Commission, closing out the joint CIGIE/Iraqi
                                                             IGs meeting at the U.S. Department of State
  •	 “Lunch with the IG” a program conducted as
     part of the New Leaders program sponsored by
     American University;                                    General. The purpose of the program was to
                                                             expose the Iraqi IGs to the work of the Federal
  •	 Attended a meeting to discuss the Integrity             Inspectors General, to exchange information,
     Committee process; Met with the attorney for            and benefit from the experience of the Federal
     the Denali Commission, Executive Director for           Inspectors General. The IG conducted a pre-
     CIGIE, and the IG of the Appalachian Regional           sentation at this meeting on IGs, the Council of
     Commission to discuss the Denali Commission             Inspectors General on Integrity and Efficiency,
     vacant IG position.                                     and its predecessors.
  •	 The IG participated in a program imple-              •	 The IG also took part in a joint CIGIE /Iraqi IG
     mented by the United Nations Development                meeting at the Department of State and attend-
     Programme (UNDP) Iraq and funded by the                 ed a reception hosted by the Iraqi Ambassador
     U.S. Department of State to enhance the                 in honor of the Iraqi IGs.
     capacity of the Iraqi Offices of Inspectors



14
October 1, 2013 - March 31, 2014




                                                                                OIG Contacts



      The table below indicates the total amount of contacts received by the Office of Inspector General for the
      past six months – October 1, 2013 through March 31, 2014.

      These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and
      personal visits to the OIG.


                                    Total          OIG          No Action       Forwarded
                                   Contacts       Action        Necessary       for Action

                                    5,175            39          5,124               12




                                                                                                              15
                                                              Office of Inspector General Semiannual Report to Congress




                                         List of Training, Meetings
                                                   and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period April 1, 2013 – September 30, 2013:

MEETINGS:
                  Host / Sponsor                                            Topic / Subject


                                                            Weekly Chair/Vice Chair Meetings
                                                            Monthly Meetings
                                                            Monthly Executive Council Meetings
         Council of Inspectors General on Integrity
                                    and Efficiency          Professional Development Committee’s Leadership
                                                            Development Subcommittee Meetings
                                                            Joint CIGIE/Iraqi IG Meeting
                                                            CIGIE Awards Ceremony


     Council of Counsels to the Inspectors General          Monthly Meetings
                                                            Small OIG Working Group Meeting

      Assistant Inspector General for Investigations        Quarterly Meetings

                                                            Bi-monthy Directors' Meetings
                      Federal Election Commission           Finance Committee Meetings
                                                            Managers' Meeting

                  FEC / Office of Inspector General         Bi-weekly Staff Meetings




16
October 1, 2013 - March 31, 2014




 TRAINING/CONFERENCES:
                   Host / Sponsor                                         Topic / Subject

      Association of Certified Fraud Examiners        Investigative Techniques on Corporate Fraud and Internal
                                                      Investigations

               Association of Inspectors General      AIG – 2013 Fall Conference


                                        Audit Net     Using Excel to Perform Analytics


                     Institute of Internal Auditors   “So you Want to be a CAE?”


                                   CCH TeamMate       2013 TeamMate User Forum Conference


                              Potomac Forum, LTD      IT Investment Management Governance in the Sequestration
                                                      and Post Sequestration Environment

    Department of Homeland Security/Federal           Understanding the Inspection Search
           Law Enforcement Training Center

    George Washington University - Center for         Government Mobility: Catalyst for Change
             Excellence in Public Leadership

                                                      Dealing with Data
                   Partnership for Public Service     Driving Change
                                                      Engaging Employees Through Appreciation


                                                      Email Management Workshop
                                                      Maximizing Diversity and Inclusion: The Most Important
                                                      Issue of the FEC
                                                      FEC Biennial Survey Training and EEO Policy Review
                                                      EEO Webinar: Calming Upset People with Empathy,
                    Federal Election Commission       Attention and Respect
                                                      Security Awareness Training for Executive Level Staff
                                                      Transit Subsidy Benefit Training
                                                      Privacy Training
                                                      Ethics Annual Training
                                                      FEC Publisher (contact manager)

                                                      Professional Development/Leadership
                     National Seminars / Skillpath
                                                      Seminars/Webinars



                                                                                                                 17
                                                             Office of Inspector General Semiannual Report to Congress




                                            Reporting Requirements



Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
General Act Amendments of 1988 are listed below:

     IG ACT               DESCRIPTION                                                                       PAGE


     Section 4(a)(2)      Review of Legislation                                                                13

     Section 5(a)(1)      Significant Problems, Abuses, and Deficiencies                                      None

                          Recommendations with Respect to Significant Problems, Abuses,
     Section 5(a)(2)                                                                                          None
                          and Deficiencies

                          Recommendations Included in Previous Reports on Which Corrective
     Section 5(a)(3)                                                                                           21
                          Action Has Not Been Completed (Table III)

     Section 5(a)(4)      Matters Referred to Prosecuting Authorities                                         None

     Section 5(a)(5)      Summary of Instances Where Information was Refused                                  None

     Section 5(a)(7)      Summary of Significant Reports                                                        6

     Section 5(a)(8)      Questioned and Unsupported Costs (Table I)                                           19

     Section 5(a)(9)      Recommendations that Funds be put to Better Use (Table II)                           20

                          Summary of Audit Reports issued before the start of the Reporting Period
     Section 5(a)(10)                                                                                         N/A
                          for which no Management Decision has been made

     Section 5(a)(11)     Significant revised Management Decisions                                            N/A

                          Management Decisions with which the Inspector General is
     Section 5(a)(12)                                                                                         None
                          in Disagreement




18
October 1, 2013 - March 31, 2014




                                                                              Table I


 INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
 (DOLLAR VALUE IN THOUSANDS)



                                                       Number   Questioned   Unsupported
                                                                  Costs         Costs

  A. For which no management decision has been made      0          0             0
     by commencement of the reporting period


  B. Which were issued during the reporting period       0          0             0


      Sub-Totals (A&B)                                   0          0             0


  C. For which a management decision was made during     0          0             0
     the reporting period


      (i) Dollar value of disallowed costs               0          0             0


      (ii) Dollar value of costs not disallowed          0          0             0


  D. For which no management decision has been made      0          0             0
     by the end of the reporting period

  E. Reports for which no management decision was        0          0             0
     made within six months of issuance




                                                                                       19
                                                                Office of Inspector General Semiannual Report to Congress




                                                                                                  Table II



INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE


                                                                           Number                 Dollar Value
                                                                                                (In Thousands)
 A. For which no management decision has been made by the                       0                          0
    commencement of the reporting period

 B. Which were issued during the reporting period                               0                          0

 C. For which a management decision was made during the re-                     0                          0
    porting period
     (i) dollar value of recommendations were agreed to by                      0                          0
         management

        based on proposed management action                                     0                          0

        based on proposed legislative action                                    0                          0

     (ii) dollar value of recommendations that were not agreed to               0                          0
          by management
 D. For which no management decision has been made by the                       0                          0
    end of the reporting period
 E. Reports for which no management decision was made within                    0                          0
    six months of issuance




20
October 1, 2013 - March 31, 2014




                                                                                     Table III


 SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
 MORE THAN SIX MONTHS
                                                                       Recommendations
                                                        Report      Issue
                       Report Title                                         Number   Closed   Open
                                                        Number      Date


      Audit Follow-up Review of the FEC’s Employee      OIG-08-03   07/09     51      51       0
      Transit Benefit Program

      Audit of the Commission’s Property Management     OIG-09-02   03/10    36       29       7
      Controls

      2010 Follow-up Audit of Procurement and           OIG-10-02   06/11    29       20       9
      Contract Management

      2010 Follow-up Audit of Privacy and Data          OIG-10-03   03/11    45       15      30
      Protection


      Inspection of the Federal Election Commission’s   OIG-11-02   12/11    15       15       0
      Kastle Key Program


      Quality Assessment Audit of the FEC’s Audit       OIG-12-01   09/12     11      11       0
      Division

      Inspection of the Federal Election Commission’s
      Disaster Recovery Plan and Continuity of          OIG-12-06   01/13     30         0    30
      Operations Plans


      Audit of the Federal Election Commission's        OIG-12-05   07/13     26         9    17
      Office of Human Resources




 	                                    Cumulative Total of Outstanding Recommendations	         93




                                                                                                     21
                                                               Office of Inspector General Semiannual Report to Congress




                                                                    Appendix A:
                                                           Peer Review Activity

In accordance with the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Section 989C
of P.L. 111-203), which amended Section 5 of the Inspector General Act of 1978, OIGs are required to include
in their semiannual reports (SAR) to Congress the results of peer reviews of their offices, as well as outstand-
ing and not fully implemented recommendations from peer reviews the OIG received from another OIG, and
outstanding and not fully implemented recommendations the OIG made in any peer review it performed for an-
other OIG.

In accordance with the Council of Inspectors General on Integrity and Efficiency (CIGIE) Audit Peer Review
schedule, the United States International Trade Commission (ITC) Office of Inspector General conducted an
audit peer review of the Federal Election Commission OIG. A final system review report was issued to the FEC
OIG February 11, 2014 and this office received a pass rating. There were no weaknesses or recommendations
identified in the system review report.

The FEC OIG completed an audit peer review of the National Endowment for the Humanities (NEH) OIG dur-
ing the prior reporting period and issued the final system review report September 30, 2013. The results of our
peer review of the NEH OIG resulted in one (1) recommendation for improvement. We identified that the NEH
Inspector General (IG) reports administratively to the Chairman of the National Endowment for the Humanities.
Because the 26 members of the National Council of the Humanities are not involved in managing and/or over-
seeing NEH’s daily operations and only meet several times a year, NEH did not believe it was practical for the
IG to report directly to the full National Council. We recommended that NEH OIG implement additional proce-
dures to ensure the NEH OIG is adhering to the requirements specified in the IG Act, as amended by Dodd-
Frank, which stipulates that the NEH IG shall report only to the National Council on the Humanities.

Consistent with the requirements of Section 989C of P.L. 111-203, the FEC OIG is required to include in our
semiannual report a list of any outstanding and not fully implemented recommendations by the NEH OIG. The
FEC OIG contacted the NEH IG in April 2014 to obtain the status of the recommendation contained in the sys-
tem review report (peer review report).

According to the NEH IG, corrective action has been planned to address the recommendation but has not yet
been fully implemented as of March 31, 2014. The FEC OIG will follow-up with NEH IG during the next report-
ing period to determine if the recommendation has been fully implemented.




22
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
